No.

IN THE
SUPREME COURT OF THE UNITED STATES

MARK LEE WILLIAMS - PETITIONER
vs.
ARIZONA STATE BAR - RESPONDENT

On Petition for a Writ of Certiorari to the Arizona Supreme Court
APPENDIX TO PETITION FOR A WRIT OF CERTIORARI

Mark Lee Williams, Esq. SBN 022096
LAW OFFICE OF MARK L. WILLIAMS
969 N. Grand Ave. #1
Nogales, AZ 85621
Tel: (520) 287-4500
Email: markwilliamsesq@vahoo.com
Pro Se Petitioner

Received
AUG - 4 2021

fflttaiMw

TABLE OF CONTENTS
Arizona Supreme Court Order Denying Petitioner’s Motion For A Stay (March 9
2021)
App. 1
Arizona Supreme Court Amended Decision Order (March 5, 2021)

App. 2-5

Arizona Supreme Court Decision Order (March 3, 2021)

App. 6-9

Presiding Disciplinary Judge Order Granting Stay With Conditions of Supervision
(March 17, 2020)
App. 10-11
Presiding Disciplinary Judge Decision And Order Imposing Sanctions (February 27,
2020)
App. 12-49
Arizona State Bar Complaint (August 26, 2019)

App. 50-56

Arizona Ethical Rule 1.1 Competence

App. 57-58

Arizona Ethical Rule 1.3 Diligence

App. 59-60

Arizona Ethical Rule 1.4 Communication

App. 61-63

Arizona Ethical Rule 3.1 Meritorious Claims and Contentions

App. 64-65

Arizona Ethical Rule 3.4 Fairness to Opposing Party and Counsel

App. 66-67

Arizona Ethical Rule 8.4 Misconduct

App. 68-71

Petitioner’s Answer to Bar Complaint (September 16, 2019)

App. 72-77

Petitioner’s Separate Prehearing Memorandum (November 25, 2019)

App. 78-87

Petitioner’s Notice of Appeal (March 9, 2020)

App. 88-89

Select Portions of Transcript of Hearing (January 15, 2020)

App. 90-101

Petitioner’s Opening Brief.

App. 102-143

Petitioner’s Reply Brief.

App. 144-173

Rule 72, Arizona Rules of Supreme Court

App. 174-175

Petitioner’s Motion for a Stay

App. 176-186
i

Petitioner’s Supplement to Motion for a Stay

App. 187-192

State Bar Statement of Costs and Expenses

App. 193
App 194

Statement of Costs and Expenses
Objections to State Bar Statement of Costs and Expenses

App. 195-204

State Bar’s Response to Objections to Statement of Costs and Expenses
Order Denying Objections and Awarding Costs and Expenses

205-211

App. 212-213

Motion for Reconsideration of March 5, 2021 Amended Decision Order..App.214-254
Order Denying Motion for Reconsideration of March 5, 2021 Amended Decision
Order
App. 255-256

n

SUPREME COURT OF ARIZONA
Arizona Supreme Court
No. SB-20-0017-AP

In the Matter of a Member of the
State Bar of Arizona
MARK LEE WILLIAMS,
Attorney No. 22096

)
)
)
Respondent. )

Office of the Presiding
Disciplinary Judge
No. PDJ20199058

)
)

FILED 03/09/2021
ORDER
Upon

consideration

of

Respondent's

"Motion

"Supplement to Motion for a Stay,"
IT IS ORDERED denying the motion.
DATED this 9th day of March, 2021.

/s/
ANN SCOTT TIMMER
Duty Justice

TO:
Mark Lee Williams
Hunter F Perimeter
Susan Hunt

App. 1

for

a

Stay"

and

SUPREME COURT OF ARIZONA
In the Matter of a Member of the
State Bar of Arizona
MARK LEE WILLIAMS,
Attorney No. 22096

)
)
)

Arizona Supreme Court
No. SB-20-0017-AP

)
}
)
Respondent. )

Office of the Presiding
Disciplinary Judge
No. PDJ20199058

)

FILED 03/05/2021
AMENDED DECISION ORDER
Pursuant to Rule 59, Rules of the Supreme Court, Respondent Mark
Lee Williams appealed the hearing panel's decision and sanction
The Court has considered
suspending him for six months and one day.
the parties' briefs and the record in this matter.
In disciplinary appeals, we accept the
unless they are not supported by reasonable
In re Alexander, 232 Ariz. 1, 5
erroneous.
Rule 59(j).
of law are reviewed de novo,
sanction de novo as a question of law. In
541 1 39 (2014) .

panel's factual findings
evidence and are clearly
f 11 (2013). Conclusions
We review the imposed
re Isler, 233 Ariz. 534,

First, Respondent argues that he was denied due process in the
discipline proceedings because the complaint failed tc give fair
Due process in an attorney
notice of the conduct and charges,
discipline proceeding requires "fair notice of the charges and a
In re Aubuchon, 233
meaningful opportunity to defend against them."
65
1
7
(2013);
In
re
Peasley,
208
Ariz.
27, 34 f 26 (2004).
Ariz. 62,
Respondent
has
not
demonstrated
that he was denied
On these facts,
fair notice of the charges.
The allegations in the Complaint are straightforward and, except
for the ER 1.4 charge, it is clear which facts relate tc which
charged ethical rule.
Respondent is correct that ER 1.4 has several
subparts, and the Complaint did not specify which subpart Respondent
This deficiency, however, did not deny
was alleged to have violated.
In prehearing
Respondent due process or cause him prejudice,
the
State
Bar
consistently
described
Respondent's
alleged
memoranda,
misconduct as failing to keep his client "reasonably informed about
the status of the matter." This requirement appears in ER 1.4(a)(3).
Respondent does not allege that he was unaware of the specific charge
—file—a—mat Lon—challenging the sufficiency of the
■a-nd—did—
While the Complaint could have been more specific,
Complaint.

App. 2

Arizona Supreme Court No. SB-2Q-0017-AP
Page 2 of 4
Respondent has not demonstrated that he was denied fair notice of the
charges or that he suffered any prejudice.
Second,' Respondent argues the panel made clearly erroneous
findings regarding the facts of the case, pointing to evidence he
In
presented that conflicted with the panel's determinations,
reviewing the panel's factual findings, the Court does not reweigh
Except
conflicting evidence.
In re Isler, 233 Ariz. at 716 1 17.
for the findings discussed below, the Court rejects Respondent's
challenges to the panel's findings. The record provides clear and
convincing evidence that Respondent failed to properly communicate
with- his client about disclosure requirements and that he failed to
timely inform his client about the outcome of the appeal.
Further,
the evidence establishes that Respondent failed to provide competent
representation by raising a frivolous argument on appeal. This
conduct negatively impacted his client and the courts.
Accordingly,
the Court accepts the panel's findings that Respondent's conduct
violated ERs 1.1. 1.3, 1.4(a)(3), 3.1, 3.4(c), and 8.4(d).
We agree with Respondent that certain findings or conclusions of
the panel were "unsupported by any reasonable evidence."
In re Van
Dox, 214 Ariz. 300, 304 1 15 (2007).
We reject the panel's finding
that the Court of Appeals "deemed all arguments on appeal waived."
Decision and Order Imposing Sanctions, p. 2.
The Court of Appeals
reviewed on the merits the issue of whether the law of Mexico should
apply to the determination of spousal maintenance; the issue was not
We also reject the panel's conclusion that
considered waived.
Respondent engaged in unethical conduct by copying large portions of
the trial transcript into his opening brief or by failing to strictly
comply with Rule 13(a)(7),
Arizona Rules of Civil Appellate
While Respondent's briefing does not represent best
Procedure.
practices, it does not rise to the level of professional misconduct.
Finally, we reject the panel's finding that the awards of attorney
fees pursuant to A.R.S. § 25-324 were imposed as sanctions. But the
trial court and Court of Appeals clearly considered the conduct and
unreasonable positions taken on behalf of the client during the
It is not clear on these facts,
proceedings in awarding fees,
however, that the awards were imposed as a sanction.
See Quijada v.
Quijada, 246 Ariz. 217, 222 1 17 (App. 2019) (fee-shifting provisions
of A.R.S. § 25-324 are intended to ensure that the poorer party has
the proper means to litigate the action,
not to punish the
litigants) .
The panel's mistakes made concerning these findings, however, do
not compel us to vacate the panel's finding that Respondent's conduct
violated the above-listed ethical rules. The argument concerning the
to reduce the_spousal maintenance
award
■law-of- -Me x Leo/
______________
had no supporting authority and did not explain why existing *

App. 3

Arizona Supreme Court No. SB-20-0017-AP
Page 3 of 4
authority should logically extend to embrace Respondent's argument.
The unreasonableness of this position undoubtedly contributed to the
lower courts'' decisions to award attorney fees against Respondent's
See § 25-324 (authorizing an award of fees if appropriate
client.
"after considering the financial resources of both parties and the
reasonableness of the positions each party has taken throughout the
proceedings").
With respect to the appropriate
sanction, we agree with the
Respondent
panel that suspension is the presumptive sanction.
repeatedly failed to communicate withhis client, resulting in
the
failure to comply with the disclosure requirements. This conduct
negatively impacted the client and the courts. Under ABA Standard
4.42(b), suspension is the presumptive sanction when "a lawyer
engages in a pattern of neglect and causes injury or potential injury
to a client."
Respondent's recent past disciplinary violations also
With one exception, the
Court accepts the
counsel suspension.
We reject the
panel's findings in aggravation and mitigation,
panel's finding that Respondent had a dishonest or selfish motive to
The record supports a
"conceal" the Court of Appeals decision,
finding that Respondent did not timely inform the client of the Court
There is no evidence, however, that Respondent
of Appeals decision,
concealed the information from the client, or that his delay was
intended to or did benefit himself.
The
The panel imposed a suspension of six months and one day.
State Bar, however, recommended a thirty-day suspension and a period
of probation including supervision by the Law Office Management
Assistance Program (LOMAP). The Court finds that a thirty-day
Further, Respondent would
suspension is appropriate on these facts,
LOMAP
oversight
during
a
period of probation.
benefit
from
Accordingly,
IT IS ORDERED granting the appeal.
IT IS FURTHER ORDERED modifying the sanction to reflect a
thirty-day suspension, effective thirty days from the date of this
order.
IT IS FURTHER ORDERED that, effective the date of this order,
Respondent is placed on probation for two years under the following
terms and conditions:
1) Within thirty days of this order, Respondent must contact the
Compliance Monitor at the State Bar and submit to a LOMAP
assessment, as necessary. Respondent shall enter into a LOMAP
contrant- haspH on the recommendations following any assessment.

App. 4

Arizona Supreme Court No. SB-20-0017-AP
Page 4 of 4
Respondent shall be responsible for any costs associated with
LOMAP.
25 The ’ State Bar shall report material violations of the terms
of probation pursuant to Rule 60 (a) (5) <C), and a hearing may be
held within thirty days to determine if the terms of probation
have been violated and if an additional sanction should be
imposed. The burden of proof shall be on the State Bar to prove
non-compliance by a preponderance of the evidence.
IT IS FURTHER ORDERED that Respondent must comply with,
all applicable provisions of Rule 72 and shall promptly inform
this Court and the Disciplinary Clerk of his compliance with this
Order as provided in Rule 72(e).
IT IS FURTHER ORDERED that Respondent shall be assessed the
costs and expenses of the disciplinary proceedings as provided in
Rule 60 (d) (2)'(B) .
IT IS FURTHER ORDERED denying the Request to Take Judicial
Notice and the Request for Oral Argument,
DATED this 5^ day of March, 2021.

/s/
ROBERT BRUTINEL
Chief Justice

TO:
Mark Lee Williams
Hunter F Perimeter
Susan Hunt
Sandra Montoya
Maret Vessella
Don Lewis
Beth Stephenson
Mary Pieper
Raziel Atienza
Lexis Nexis

App. 5

SUPREME COURT OF ARIZONA
In the Matter of a Member of the
State Bar of Arizona

)

Arizona Supreme Court
No. SB-20-0017-AP

)

Office of the Presiding
Disciplinary Judge
No. PDJ20199058

MARK LEE WILLIAMS,
Attorney No. 22096
Respondent. }

FILED 03/03/2021

DECISION ORDER
Pursuant to Rule 59, Rules of the Supreme Court, Respondent Mark
Lee Williams appealed the hearing panel's decision and sanction
The Court has considered
suspending him for six months and one day.
the parties' briefs and the record in this matter.
In disciplinary appeals, we accept the
unless they are not supported by reasonable
In re Alexander, 232 Ariz. 1, 5
erroneous.
Rule 59 (j).
of law are reviewed de novo,
sanction de novo as a question of law. In
541 H 39 (2014) .

panel's factual findings
evidence and are clearly
1 11 (2013). Conclusions
We review the imposed
re Isler, 233 Ariz. 534,

First, Respondent argues that he was denied due process in the
discipline proceedings because the complaint failed to give fair
Due process in an attorney
notice of the conduct and charges.
discipline proceeding requires "fair notice of the charges and a
In re Aubuchon, 233
meaningful opportunity to defend against them."
62,
65
f
7
(2013);
In
re
Peasley,
208
Ariz.
27, 34 f 26 (2004).
Ariz.
On these facts, Respondent has not demonstrated that he was denied
fair notice of the charges.
The allegations in the Complaint are straightforward and, except
for the ER 1.4 charge, it is clear which facts relate to which
charged ethical rule.
Respondent is correct that ER 1.4 has several
subparts, and the Complaint did not specify which subpart Respondent
was alleged to have violated.
This deficiency, however, did not deny
Respondent due process or cause him prejudice.
In prehearing
memoranda, the State Bar consistently described Respondent's alleged
misconduct as failing to keep his client "reasonably informed about
the status of the matter." This requirement appears in ER 1.4(a)(3).
Respondent does not allege that he was unaware of the specific charge
-and—d-i-d—not —f-i-l-e —a—motion__ challenging... the sufficiency of the
While the Complaint could have been more specific,
Complaint.

App. 6

Arizona Supreme Court No. SB-20-0017-AP
Page 2 of 4
Respondent has not demonstrated that he was denied fair notice of the
charges or that he suffered any prejudice.
Second, Respondent argues the panel made clearly erroneous
findings regarding the facts of the case, pointing to evidence he
presented that conflicted with the panel's determinations,
In
reviewing the panel's factual findings, the Court does not reweigh
conflicting evidence.
In re Isler, 233 Ariz. at 716 1 17.
Except
for the findings discussed below, the Court rejects Respondent's
challenges to the panel's findings. The record provides clear and
convincing evidence that Respondent failed to properly communicate
with his client about disclosure requirements and that he failed to
timely inform his client about the outcome of the appeal.
Further,
the evidence establishes that Respondent failed to provide competent
representation by raising a frivolous argument on appeal. This
conduct negatively impacted his client and the courts.
Accordingly,
the Court accepts the panel's findings that Respondent's conduct
violated ERs 1.1, 1.3, 1.4(a)(3), 3.1, 3.4(c), and 8.4(d).
We agree with Respondent that certain findings or conclusions of
In re Van
the panel were "unsupported by any reasonable evidence."
We reject the panel's finding
Box, 214 Ariz. 300, 304 f 15 (2007).
that the Court of Appeals "deemed all arguments on appeal waived."
Decision and Order Imposing Sanctions, p. 2.
The Court of Appeals
reviewed on the merits the issue of whether the law of Mexico should
apply to the determination of spousal maintenance; the issue was not
considered waived.
We also reject the panel's conclusion that
Respondent engaged in unethical conduct by copying large portions of
the trial transcript into his opening brief or by failing to strictly
comply with Rule 13(a)(7),
Arizona Rules of Civil Appellate
Procedure.
While Respondent's briefing does not represent best
practices, it does not rise to the level of professional misconduct.
Finally, we reject the panel's finding that the awards of attorney
fees pursuant to A.R.S. § 25-324 were imposed as sanctions. But the
trial court and Court of Appeals clearly considered the conduct and
unreasonable positions taken on behalf of the client during the
It is not clear on these facts,
proceedings in awarding fees.
however, that the awards were imposed as a sanction.
See Quijada v.
Quijada, 246 Ariz. 217, 222 1 17 (App. 2019) (fee-shifting provisions
of A.R.S. § 25-324 are intended to ensure that the poorer party has
the proper means to litigate the action,
not to punish the
litigants).
The panel's mistakes made concerning these findings, however, do
not compel us to vacate the panel's finding that Respondent's conduct
violated the above-listed ethical rules. The argument concerning the
of Mexico's application to reduce the spousal maintenance award
had no supporting authority and did not explain why existing

App. 7

Arizona Supreme Court No. SB-20-0017-AP
Page 3 of 4
authority should logically extend to embrace Respondent's argument.
The unreasonableness of this position undoubtedly contributed to the
lower courts' decisions to award attorney fees against Respondent's
See § 25-324 (authorizing an award of fees if appropriate
client.
"after considering the financial resources of both parties and the
reasonableness of the positions each party has taken throughout the
proceedings").
With respect to the appropriate sanction, we agree with the
Respondent
panel that suspension is the presumptive sanction,
resulting
in the
repeatedly failed to communicate with his client,
failure to comply with the disclosure requirements, This conduct
negatively impacted the client and the courts. Under ABA Standard
4.42(b), suspension is the presumptive sanction when "a lawyer
engages in a pattern of neglect and causes injury or potential injury
Respondent's recent past disciplinary violations also
to a client."
With one exception, the Court accepts the
counsel suspension,
We reject the
panel's findings in aggravation and mitigation.
panel's finding that Respondent had a dishonest or selfish motive to
The record supports a
"conceal" the Court of Appeals decision,
finding that Respondent did not timely inform the client of the Court
of Appeals decision.
There is no evidence, however, that Respondent
concealed the information from the client, or that his delay was
intended to or did benefit himself.
The
The panel imposed a suspension of six months and one day.
State Bar, however, recommended a thirty-day suspension and a period
of probation including supervision by the Law Office Management
Assistance Program (LOMAP). The Court finds that a thirty-day
Further, Respondent would
suspension is appropriate on these facts,
a period of probation.'
benefit
from LOMAP oversight during
Accordingly,
IT IS ORDERED granting the appeal.
IT IS FURTHER ORDERED modifying the sanction to reflect a
thirty-day suspension, effective thirty days from the date of this
order.
IT IS FURTHER ORDERED that, effective the date of this order,
Respondent is placed on probation for two years under the follot-zing
terms and conditions:
1) Within thirty days of this order, Respondent must contact the
Compliance Monitor at the State Bar and submit to a LOMAP
assessment, as necessary, Respondent shall enter into a LOMAP
mni-ract based on the recommendations following any assessment.

App. 8

Arizona Supreme Court No. SB-20-0017-AP
Page 4 of 4
Respondent shall be responsible for any costs associated with
LOMAP.
2) The 'State Bar shall report material violations of the terms
of probation pursuant to Rule 60(a)(5)(C), and a hearing may be
held within thirty days to determine if the terms of probation
have been violated and if an additional sanction should be
imposed. The burden of proof shall be on the State Bar to prove
non-compliance by a preponderance of the evidence.
IT IS FURTHER ORDERED that Respondent must comply with
all applicable provisions of Rule 72 and shall promptly inform
this Court and the Disciplinary Clerk of his compliance with this
Order as provided in Rule 72 (e).
IT IS FURTHER ORDERED that Respondent shall be assessed the
costs and expenses of the disciplinary proceedings as provided in
Rule 60 (b) (2) (B) .
IT IS FURTHER ORDERED denying the Request to Take Judicial
Notice and the Request for Oral Argument.
DATED this

day of March

2021,

/ s/
ROBERT BRUTINEL
Chief Justice

TO:
Mark Lee Williams
Hunter F Perimeter
Susan Hunt
Sandra Montoya
Maret Vessella
Don Lewis
Beth Stephenson
Mary Pieper
Raziel Atienza
Lexis Nexis

App. 9

BEFORE THE PRESIDING DISCIPLINARY JUDGE
PDJ 2019-9058

IN THE M ATTER OF A MEMBER OF
THE STATE BAR OF ARIZONA,

ORDER GRANTING STAY
WITH CONDITIONS OF
SUPERVISION

MARK LEE WILLIAMS,
Bar No. 022096

[State Bar No. 18-2955]

Applicant.

FILED MARCH 17,2020
The Panel issued its Decision and Order Imposing Sanctions on February 27,
2020. Mr. Williams filed a timely notice of appeal and a timely application for stay
pursuant to Rule 59(c), Ariz. R. Sup. Ct. The application included proposed
conditions of supervision and a summary of his current case load. It does not
however, list the case names or numbers. The State Bar is not opposed to the stay
subject to subject to conditions of supervision.
Rule 59(c), Ariz. R. Sup. Ct. provides in part, that the application shall be
granted subject to appropriate conditions of supervision, unless the hearing panel
determines no such conditions will protect the public while the appeal is pending.
The following order is entered with the approval of the hearing panel.
IT IS ORDERED granting the Application for Stay under the following
conditions of supervision:
1. Respondent shall contact the State Bar Compliance Monitor at (602) 3407258, within ten (10) days from the date of this order. Respondent shall
submirtcnrEOMAP'examination'ofTtieiT'office-pro-ceduTesr-R-espondentl

App. 10

shall sign terms and conditions of participation, including reporting
requirements, which shall be incorporated herein and shall last until there
is a final judgment and order is issued. Respondent shall be responsible for
any costs associated with LOMAP.
2. Respondent shall complete the following continuing legal education
courses within thirty (30) days from the date of this order: Working with
the Arizona Court of Appeals (2018) for 6.25 credit hours.
3. Respondent shall contact the State Bar Compliance Monitor at (602) 3407258, within ten (10) days from the date of this order to schedule an
assessment. The Compliance Monitor shall develop terms and conditions
of participation if the results of the assessment so indicate and the terms,
including reporting requirements, shall be incorporated herein.
Respondent shall be responsible for any costs associated with participation
with compliance.
DATED this 17* day of March 2020.

lYifltam l O’JSfeif
William J. O’Neil, Presiding Disciplinary Judge
COPY of the foregoing e-mailed/mailed this
17th day of March 2020 to:
Hunter F. Perimeter
Senior Bar Counsel
4201 N. 24th Street, Suite 100
Phoenix, AZ 85016-6288
Email: lro@staff.azbar.org

Mark Lee Williams
969 N. Grand Avenue #1
Nogales, AZ 85621
Email: Markwilliamsesq@yahoo.com
Respondent

bv: MSmith

2

App. 11

BEFORE THE PRESIDING DISCIPLINARY JUDGE
IN THE MATTER OF A MEMBER OF
THE STATE BAR OF ARIZONA,
MARK LEE WILLI AMS,
Bar No. 022096

PDJ 2019-9058
DECISION AND ORDER
IMPOSING SANCTIONS
[State Bar No. 18-2955]

Respondent.

FILED FEBRUARY 27, 2020

L

SUMMARY

Mark Lee Williams was licensed to practice law in the State of Arizona on
November 24, 2003. He represented Mr. Jesus Emilio Garcia (“Client”) in his
divorce case at both the trial and appellate level.
Rule 49 of the Arizona Rules of Family Law Procedure require each party to
complete an Affidavit of Financial Information within a set time frame. Mr.
Williams never provided Client with any date to complete that form and replied “No”
when Client asked whether it was time sensitive. The pretrial statement with the
required Financial Affidavit was never filed. The trial court sanctioned Client for
this and other disclosure violations.
The trial court’s final decision awarded spousal maintenance to Client’s exwife. Client was frustrated with the trial court’s ruling and sanctions, Mr. Williams
1

App. 12

advised Client about appealing the trial court’s decision, Mr. Williams did not
inform Client that there was little legal or practical chance of success on appeal.
Instead he touted his own experience and skill at handling appeals. Mr. Williams
filed an opening brief with the Arizona Court of Appeals. He failed to cite any
relevant legal or factual authority to support his arguments. He cut and pasted large
portions of the trial transcript directly into the statement of facts. The Court of
Appeals rejected Mr. Williams’s arguments and deemed all arguments on appeal
waived. The Court of Appeals ordered Client to pay his ex-wife’s attorney fees and
costs for the appeal.
Mr. Williams did not inform Client of the Court of Appeals’ decision; instead,
Client learned of the decision on his own, nearly a month after the decision issued.
Client made multiple failed attempts to communicate with Mr, Williams. Mr.
Williams was non-responsive. Client initiated a bar charge against Mr. Williams.
This matter proceeded to a contested hearing before the Hearing Panel
(“Panel”), Presiding Disciplinary Judge William J. O’Neil (“PDJ”) was joined by
volunteer attorney member Ralph Wexler and volunteer public member W. Keith
Turner. Hunter F. Perimeter represented the State Bar of Arizona. Mr. Williams
appeared pro se. Various exhibits were admitted into evidence during the hearing.
(Exs. 1,2,7-12, 18,21,26).

2

App. 13

We find by clear and convincing evidence that Mark Lee Williams violated
ERs 1.1,1.3,1.4.3.1.3.4(c), and 8.4(d). Based on the allegations and Mr. Williams’s
representation of himself at the hearing, the Panel determined a six (6) month and
one (1) day suspension is appropriate.
IL
1.

FINDINGS OF FACT

Mr. Williams is a lawyer licensed to practice law in Arizona having been first
admitted to practice on November 24, 2003. (Joint Prehearing Statement
(“IPS”) at *f| 1.)

2.

Mr. Williams has a prior attorney disciplinary offense. On December 20,
2013, Mr. Williams was admonished and placed on probation by the Attorney
Discipline Probable Cause Committee for violating Ethical Rule (“ER”) 1.1
(competence), ER 1.3 (diligence), ER 1.5 (retaining an unreasonable fee), ER
1.15(d) (refusing to provide accounting or refund), ER 1.16(d) (failing to
protect his client’s interest upon termination), and ER 8.4(d) (conduct
prejudicial to the administration of justice). (Ex. 11.) That conduct is
substantially similar to the violations we find here.

3.

Client is an immigrant and the complainant, English is not his first language.
(Hr’g Tr. 1/15/2020, beginning at 9:34:00 a,m. and 3:44:26 p.m.)

4.

Client hired Mr. Williams in July of 2016 for representation in his divorce.
(JPS at f 2.)
3

App. 14

5.

Mr. Williams never explained the duties and obligation imposed upon his
client by the applicable rules. Instead, on September 23, 2016, Mr. Williams
emailed Client a blank copy of the Affidavit of Financial Information (“AFL”)
to complete and a photocopy of Rule 49 of the Rules of Family Law Procedure
(“RFLP”) (“Rule 49”). (Ex. 12, at 000130-000149.)

6.

In the same email, Mr. Williams attached a copy of a letter he sent to the
attorney for Client’s ex-wife. The letter stated that if the attorney did not
provide interrogatories and Rule 49 disclosures, he would request
“appropriate sanctions.” (Ex. 12, at 000150.) Mr. Williams testified that this
letter was how he informed his Client that sanctions could issue against him
if he failed to make timely disclosures.

7.

On September 28,2016, Client emailed Mr. Williams and asked if completing
the forms was “time sensitive.” (Ex. 10, at 000122.) Mr. Williams replied,
“No.” (Ex. 10, at 000122.)

8.

Mr. Williams did not respond to his Client when on September 28, 2016,
Client emailed Mr. Williams and asked to meet to “discuss some of [his]
answers” to the forms. (Ex. 10, at 000122.)

9.

Mr. Williams did not respond to his Client when on October 5, 2016, Client
again emailed Mr. Williams and asked when they could meet. (Ex. 10, at
000122.)
4

App.15

10.

Mr. Williams did not respond to his Client when on October 19, 2016, Client
emailed Mr. Williams informing him that he had attached the partially
complete forms and stated “.. .if you need something (sic) more just tell me.
. ” (Ex. 10, at 000121.)

11.

Mr. Williams did not respond to his Client when on November 9,2016, Client
emailed Mr. Williams asking if there “...was any news about this?, did you
need something else from me?...” Instead, Mr. Williams sent Client an email
intended for a different client which stated, “I spoke to Michael Vaughan in
person yesterday and he is going to contact Jessica Mendez to speak to your
ex and meet with your child. He told me he has spoken to you several times.”
(Ex. 10, at 000121.)

12.

Mr. Williams did not respond to his Client when Client informed him that he
did not know who the people referenced in the email were. (Ex. 10, at
000121.) In his testimony Mr. Williams admitted this email was “accidentally
sent” and had nothing to do with Client’s case. (Resp’t Mem., at 4.) When Mr.
Williams was informed of his error he made no effort to explain this error or
respond to Client’s questions that gave rise to his misdirected email

13.

Mr. Williams did not respond to his Client when Client on November 14,
2016, emailed Mr. Williams asking, “Hi Mark, any comments?” (Ex. 10, at
000121.)
5

App. 16

14.

On December 28, 2017, the Judge issued Temporary Orders in Client’s case
and awarded Client’s ex-wife spousal maintenance. (Ex. 3, at 000049-50.)

15.

The Judge found no response to the Emergency Petition for Order to Show
Cause Re: Temporary Orders had been filed on behalf of Respondent. The
Judge found that there was no Fi nancial Affidavit filed on behalf of Client or
otherwise timely compliance with the disclosure requirements of Rule 48,
RFLP by Respondent. (Id.) The Judge found there had been no response filed
on behalf of Client to the Wife’s Pre-Trial Statement. The Judge found there
had been no pre-trial statement filed on behalf of Respondent. The Judge
found an untimely request for findings of fact and conclusions of law had been
filed on behalf of Cl ien t after the hearing had concluded. (Id.) See Rule 82(A)
RFLP.

16.

In the Final Orders, the court likewise noted that Client “did not file a
Financial Affidavit or otherwise timely comply with disclosure requirements
of Rule 49.” (Ex. 6, at 000084-85.) (emphasis omitted). The court sanctioned
Client and required him to pay his ex-wife $2,500. (Ex. 6, at 000084-85.)

17.

Mr. Williams in his answer in this proceeding affirmatively denied that such
an Affidavit of Financial Information “was to be filed with the Court.”
(Answer, para. 3 Pg. 2.) This is untrue. Rule 76(C)(1) RFLP mandated that

6

App. 17

Mr, Williams as attorney for Respondent file a pretrial statement. We accept
the Court’s finding that no pretrial statement was filed on behalf of Client.
18.

Rule 76(C)(2)(a) required that Mr. Williams “file with the joint or separate
pretrial statement” the AFL or a comprehensive statement of income
substantially to it. Likewise, Rule 49(A) requires that affidavit to be disclosed
and served within 40 days of the filing of a response to the initial petition for
dissolution. Mr. Williams not only filed no AFL or comprehensive statement
of income substantially to it he also failed to disclose the AFL.

19.

Mr. Williams knew he had not served or filed any Financial Affidavit or
pretrial statement and acknowledges he did not try to protect his client. Instead
he blame-shifted to his client.

20.

Client did not understand the reasoning for the judgment and was not happy
with the sanction or the trial court’s award of spousal maintenance, so Mr.
Williams and Client discussed appealing the trial court’s decision. (Hr g Tr.,
beginning at 9:54:10 a.m.) Mr. Williams failed to inform Client of the lack of
legal support for the arguments they sought to make. (Hrg Tr., beginning at
9:54:10 a.m.) Instead he touted his experience as an appellate lawyer and his
success on appeals.

21.

On February 8, 2018, Mr. Williams filed an Opening Brief with the Court of
Appeals. (Ex, 7.) Over fourteen pages of the Statement of Facts were an
7

App. 18

unedited copy of portions of the trial transcript which he generally stated were
“important,” (Ex. 7, at 000090 and generally 000089-104.)
22.

Rule 13 of the Rules of Civil Appellate Procedure required Mr. Williams for
“each contention” to include “citations of legal authorities and appropriate
references to the portions of the record” on which he relied. He did not do so.

23.

The Opening Brief asserted that the trial court abused its discretion by
“considering] the length of time the parties were married and living-and
intending to reside-in Mexico” when determining spousal maintenance, (Ex.
7, at 000107-108.) Mr. Williams failed to cite relevant legal authority to
support this argument. (Ex. 7, at 000107-108.)

24.

Instead, to support his arguments, Mr. Williams described hypothetical
scenarios involving couples who lived outside of the United States for a
majority of their marriages but then divorced after living in the United States
for one year. (Ex. 7, at 000108-109.)

25,

Mr. Williams also stated that “[i]t is believed that it was the intention of the
Arizona legislature in considering an award of spousal maintenance (it was
assumed) that the parties lived married all their lived in the United States.”
(Ex. 7, at 000109.) Mr. Williams included no citations to support this
assertion. (Ex. 7, at 000109.)

8

App. 19

26.

On August 31, 2018, the Court of Appeals issued a decision. (Ex. 8, at
000112.) The decision rejected Mr. Williams’s arguments and found that the
trial “court’s findings of fact and conclusions of law were appropriate.” (Ex.
8, at 000116.)

27.

The decision also found that Mr. Williams,
...failed to develop any legal argument to support his
position. He also failed to include appropriate citations to
the record or relevant legal authority. The same can be said
about his [other] arguments .... We therefore conclude
all these claims are waived or abandoned on appeal and do
not address them further. See (Ex. 8, at 000116 and
Answer admitting paragraph 8 of the Complaint accurately
quotes the Court of Appeals Decision.)

28.

Because of these foundational procedural failures by Mr, Williams resulting
in the waiver or abandonment of such claims, the court ordered Client to pay
his ex-wife’s attorney fees and taxable costs of $11,870.00. (Ex. 8, at 000116;
Ex. 9, at 000118.) Mr. Williams failed to notify Client regarding the outcome
of the appeal. (Hr’g Tr., beginning at 9:59:20 a.m.)

29.

On September 28, 2018, Client learned on his own that he had lost his appeal
and owed attorney fees and costs. (Hr’g Tr., beginning at 9:59:20 a.m.)
9

App. 20

30,

On the same day, Client texted Mr. Williams that he had “a couple questions”
and asked to meet that day. (Ex. 1, at 000003.) Mr. Williams replied that he
could not meet that day because he had “too much going on.” (Ex. 1, at
000004.)

31.

Mr. Williams and Client struggled to find a time to meet due to conflicting
schedules; however, on October 1, 2018, Mr. Williams texted that he would
“be busy until about 7pm and can meet in person for a short conversation.”
(Ex. 1, at 000004-17.)

32.

On October 1, 2018 at 7:06 p.m.. Client texted Mr, Williams that he was
heading to Mr. Williams’s office. Mr. Williams replied, “No do not come i
[sic] am not ready for you.” (Ex. 1, at 000019-20.) In the hearing Mr. Williams
testified he refused to meet with him because he felt pressured.

33.

After Client expressed frustration regarding Mr. Williams’s inability to meet
with him, Mr. Williams texted that he would “text tomorrow when i [sic] am
ready to meet.” (Ex. 1, at 000020-26.) The next day, Mr. Williams texted
Client that he “worked late today and didnt [sic] have time to meet.” (Ex. 1,
at 000026.)

34,

On October 4,2018, Client initiated a bar charge against Mr. Williams. (State
Bar’s Pre-Hr’g Mem.. 8.)

10

App. 21

35.

On October 5, 2018. the State Bar contacted Mr. Williams regarding Client’s
complaint. (Hrg Tr., beginning at 1:28:40 p.m.) Mr. Williams told intake
counsel that he believed he had mailed a letter to Client regarding the Court
of Appeals decision. (Hrg Tr., beginning at 1:28:40 p.m.) We find he mailed
no copy of the opinion until after the State Bar contacted him. That day Mr.
Williams for the first time notified his client of the decision by mailing Client
a copy of the Court of Appeals decision and informing him that he had moved
for an extension of time to file a Petition for Review with the Arizona Supreme
Court. (Ex. 26, at 000192-200.)
III.
A.

ANALYSIS

Jurisdiction

The Judiciary has authority over the practice of law. In re Creasy, 198 Ariz.
539, 541 (Ariz. 2000). Specifically, Supreme Court Rule 31(a) states that “[a]ny
person or entity engaged in the practice of law ... is subject to this court’s
jurisdiction.” Rule 31(a), Ariz. R. Sup. Ct. The Supreme Court delegates jurisdiction
over disciplinary matters to the Panel. Rules 51-52, Ariz. R. Sup. Ct.
B.

State Bar’s Allegations and Conclusions of Law

11

App. 22

The State Bar must prove each allegation of professional misconduct by clear
and convincing evidence. Rule 48(d), Ariz. R. Sup. Ct. Applying the required
standard of proof, the Panel reaches the following conclusion on each allegation:
ER 1.1 (competence). ER 1.1 provides that “[a] lawyer shall provide
competent representation to a client. Competent representation requires the legal
knowledge, skill, thoroughness and preparation reasonably necessary for the
representation,”
The State Bar alleges that Mr. Williams representation of Client at the
appellate level was not competent. Specifically, the State Bar argues that Mr.
Williams “failed to reasonably cite to the record and failed to make arguments
supported by law.” (State Bar Pre-Hr’g Mem. 9.) Mr. Williams’ “statement of facts
. . . was simply a 14-page cut and paste of a trial transcript.” (State Bar Pre-Hr’g
Mem. 9.)
“Neither failure to achieve a successful result nor mere negligence in the
handling of a case will necessarily constitute an ER 1.1 violation.” In re Curtis, 184
Ariz. 256, 261 (Ariz. 1995). Mr. Williams counters that Client is looking for
someone to blame because he did not get a successful result. (Hr’g Tr., beginning at
3:55:09 p.m.) However, at the hearing, the Panel found Client a reliable witness but
did not find Mr. Williams a reliable witness. The evidence shows that Mr. Williams’

12

App. 23

briefing precluded even a consideration of the issues and assured an unsuccessful
result. The Court of Appeals specifically noted that Mr. Williams
failed to develop any legal argument to support his position. He also failed
to include appropriate citations to the record or relevant legal authority. The
same can be said about his [other] arguments .... We therefore conclude all
these claims are waived or abandoned on appeal and do not address them
further.
(Ex. 8, at 000116.) At the hearing, Mr. Williams argued that the State Bar’s
interpretation of the decision was incorrect. (Hr’g Tr., beginning at 2:25:10 p.m.).
This Panel substantially tried to understand his alternative interpretation of the
appellate result of his making which we find to be clear misconduct. At times it
seemed Mr. Williams argued that the waiver was intentional or agreed upon by the
parties. However, the decision speaks for itself. Mr. Williams’ inability to provide
evidentiary support for whatever his alternative interpretation is, was starkly like his
appellate work for Client. It gave us serious concern for his competence and
concerns for the protection of the public.
His appellate brief and the decision that followed are strong evidence to
support the State Bar’s arguments and Mr. Williams failed to offer anything that we
could discern that explained what are unequivocal failings by him. See In re
Aubuchon, 233 Ariz. 62,64-65 (2013), as amended (Oct. 25,2013) (“We have done
our best to discern and address Aubuchon's arguments, but we consider waived those
13

App. 24

arguments not supported by adequate explanation, citations to the record, or
authority.”)
Mr. Williams’ legal argument comprises hypotheticals and unsupported
speculation about legislative intent. (Ex. 7, at 000107-10. 4fff[41-44.). Most of the
argument lacks any citations to legal authority. (Ex. 7, at 000107-10, f4|37-46.) As
found by the Court of Appeals, the argument section of his brief contains no
references to any portion of the record. Mr. Williams speculated what the trial court
“appeared to find, n u discussed,” and “did not find” and what his client testified
about, but with no citations to the record. (Ex. 7, at 000107, f*f33-35, 39.)
Legal citation is “absolutely necessary.” Peter W. Martin. Introduction to
Basic

Legal

Citation,

Legal

Information

Institute

(2019),

https://www.law.comell.edu/citation/l-200. Advancing a legal argument without
any legal authority amounts to more than negligence and demonstrates a lack of
competence. This is compounded by the fact that Mr. Williams still does not seem
to understand the Court of Appeals ruling, which resulted in waiver.
Mi*. Williams' statement of facts section also raises concerns. It is
compounded by his lack of legal authority or arguments. Copying large portions of
the trial transcript appears to us to be nothing but the shortchanging of his Client
rather than the more labor-intensive work of presenting the court with specific,
relevant sections of the record that he touted to his client he could do. This implicates
14

App. 25

the “thoroughness’5 required for competent representation. A deliberate choice to
include cut and pasted fourteen pages of a transcript in a brief without no citation to
any portion of it, constitutes more than a negligent mistake. It demonstrates a lack
of competence.
ER 1.3 (diligence). ER 1,3 provides that “[a] lawyer shall act with reasonable
diligence and promptness in representing a client.”
The State Bar alleges that Mr. Williams violated ER 1.3 in multiple ways
including failing to respond to his client, failure to comply with the trial court’s
disclosure deadlines, to adequately brief the appeal, and to notify his client of the
Court of Appeals decision. (State Bar Pre-Hr’g Mem. 9.)
Mr. Williams failed to respond to Client’s emails regarding the disclosure
deadlines. He explicitly ignored him. Mr. Williams was not a credible witness. He
did not provide reliable evidence that he had affirmatively attempted to ensure Client
met the disclosure requirements beyond the initial email. As Comment 3 to ER 1.3
explains, “[a] client’s interests often can be adversely affected by the passage of
time.” Client was ultimately sanctioned because of the disclosure violations. This
demonstrates a lack of diligence, which was compounded by the lack of
communication. It is even more troubling that this absence of communication
consistently occurred throughout the representation as discussed below.

15

App. 26

Mr. Williams’ briefing lacked citations and relevant legal authority. Large
portions of the statement of facts were copied and pasted. Both factors demonstrate
a lack of adequate preparation or thoroughness. See In re Wolfram, 174 Ariz 49
(holding that “a lack of diligence by failing to adequately prepare for the criminal
trial” violates ER 1.3). The Panel therefore finds that Mr. Williams’ inadequate
briefing shows a lack of diligence.
Comment 3 to ER 1.3 states: “unreasonable delay can cause a client needless
anxiety' and undermine confidence in the lawyer's trustworthiness.” Mr. Williams
did not notify Client of the adverse result and did not mail the decision until after
being contacted by the State Bar. In the hearing. Client stated that his experience
with Mr. Williams caused him to lose confidence in his lawyer and Arizona lawyers
in general. (Hrg Tr.. beginning at 10:08:00 a.m.) Prompt communication regarding
updates in the case likely would have minimized the disappointment Client felt. Mr.
Williams failure to notify Client of the result shows a lack of diligence.
ER 1.4 (communication).

A lawyer shall “keep the client reasonably

informed about the status of the matter.” “promptly comply with reasonable requests
for information,” and “explain a matter to the extent reasonably necessary to permit
the client to make informed decisions regarding the representation,”
Mr. Williams violated ER 1.4 by failing to inform his client about the
disclosure deadline for the trial court, failing to communicate about a potential need
16

App.27

for an ex tension of the disclosure deadline, and failing to inform his client about the
Court of Appeals decision. (State Bar Pre-Hrg Mem. 9.) ER 1.4 creates an
affirmative duty to keep clients advised of important aspects of the matter they have
entrusted to the lawyer to handle. See In re Cardenas, 164 Ariz. 149 (1990).
In response to allegations that he failed to provide information regarding
disclosure deadlines, Mr. Williams argues that he emailed a copy of Rule 49, which
governs the deadline, to his client. (Hr’g If., beginning at 3:55:20 p.m.) Mr.
Williams also argues that Client was on notice of the risks of failing to comply with
disclosure deadlines because he emailed Client a copy of an email he sent to
opposing counsel threatening sanctions if opposing counsel did not comply. (Hr’g
Tr., beginning at 3:55:20 p.m.)
We find this nonsensical. These attachments do not equate to “explaining]
the matter to his client so that decisions, vital to his client, could be intelligently
made.” In re Cardenas, 164 Ariz. 149, 151 (Ariz. 1990). Nor is such an argument a
defense to his disinclination to communicate with his client. Especially considering
that Client’s first language is not English, an attachment of a complicated rule in an
email does not qualify as adequate explanation. See ER 1.4 cmt. 5 (“Adequacy of
communication depends in part on the kind of advice or assistance that is involved.”)
Mr. William’s conduct constitutes a failure under ER 1.4(b) to explain a
matter to the extent reasonably necessary to permit the client to make informed
17

App. 28

decisions regarding representation. Comment, AZ-ER 1.4 f 5. There was no
adequate communication with the client as Client’s repeated requests for
clarification clearly and conclusively establish the violation. ER 1.4(a)(4) requires a
lawyer to “promptly comply with reasonable requests for information.” The Panel
finds that Client made repeated requests to understand the disclosure requirements.
(Ex. 10. at 000121-122.) Mr. Williams both failed to provide his client with a
deadline and more information about how to complete the forms or completely failed
to respond. (Ex. 10, at 000121-122.)
In response to the allegation that he failed to inform his client about the Court
of Appeals decision, we disregard Mr. Williams claims that Client indicated that he
had found out about the decision and that they had discussed it over the phone. (Hr’g
Tr., beginning at 3:48:50 p.m.) Client testified that he learned about the decision on
his own nearly a month after the decision issued. (Hr’g Tr., beginning at 9:59:20
a.m.) The Panel found Client’s testimony to be credible especially considering that
Mr. Williams initially claimed to the State Bar that he had written his client
providing him a copy when the opinion issued.
ER 1.4(a)(3) requires a lawyer to keep the client reasonably informed about
the status of the matter. This includes “significant developments affecting the timing
or the substance of the representation” ER 1.4 cmt. 3. A court’s decision, especially
one requiring a client to pay thousands of dollars to the opposing side, qualifies as a
18

App. 29

significant development affecting the substance of the representation. See In re
Kaplan, 179 Ariz. 175, 176-77 (Ariz. 1994) (holding that failing to “adequately
communicate with the Client during the pendency of his lawsuit... [and] to notify
the Client the case was dismissed” could support an ER 1.4 violation). A decision
from a court should be shared promptly with a client to ensure the possibility of
appeal. Mr. Williams violated ER 1.4(b) and (a)(4) by failing to provide Client with
adequate information about disclosure requirements and failing to respond to
requests for clarification. The Panel also finds that Mr. Williams violated ER
1.4(a)(3) by failing to timely provide Client with information regarding the Court of
Appeals decision.
ER 3.1 (unmeritorious claims). ER 3.1 provides that “[a] lawyer shall not
bring or defend a proceeding, or assert or controvert an issue therein, unless there is
a good faith and nonff ivolous argument for an extension, modification or reversal of
existing law.” The 2003 amendment to this Rule added the requirements of both
“good faith” and “law and fact.” These impose an ethical mandate on the lawyer to
independently verify the facts and law before advancing such an argument. As the
Court of Appeals ruled, Mr. Williams abused the process and thereby failed to use
the legal process to the fullest advantage of his client.
When assessing potential violations of ER 3.1, the Panel applies an objective
standard to determine whether an argument is frivolous. Matter ofLevine, 174 Ariz.
19

App. 30

146, 152-53 (Ariz. 1993). Although the lawyer must have knowingly violated ER
3.1, “knowledge can be inferred from the frivolousness of a claim.” In re Alexander,
232 Ariz. 1, 5 (Ariz. 2013).
The evidence is clear that Mr. Williams made frivolous arguments to the Court
of Appeals because he “provided no legal authority” to support his argument that
Mexican law should apply or to support his “speculations] about legislative intent.”
(State Bar Pre-Hrg Mem. 9.) The Court of Appeals found that Mr. Williams “failed
to include appropriate citations to the record or relevant legal authority.” (Ex. 8, at
000116.) Mr, Williams claimed belief that the issue was a matter of statewide
importance is washed away with his lack of effort to research and failure to offer any
relevant support for his claimed belief. (Ex. 7, at 000107-109.) An argument is
frivolous if the lawyer “is unable to . . . support the action taken by a good faith
argument for an extension, modification or reversal of existing law.” ER 3.1 cmt. 2.
Similarly, Mr. Williams defended the lack of citations by emphasizing that it was a
case of first impression. This argum ent does not explain the lack of legal research or
legal rationale included in the brief. Regardless, his argument only increases his duty
to inform Client ofthe argument’s low likelihood of success, which we find he failed
to do.
Mr. Williams argues that the Court of Appeals did not find the arguments to
be frivolous (Hr'g Tr., beginning at 4:00:45 p.m.) and did not sanction him (Hrg
20

App. 31

Tr., beginning at 4:03:40 p.m.). At the hearing, Mr. Williams argued for an
alternative interpretation of the Court of Appeals decision. (Hr’g Tr., beginning at
2:25:10 p.m.). This Panel has made substantial efforts to understand these
arguments, but Mr. Williams did not provide the panel with citations or other
evidence to clarify his interpretation.
The objective record which includes the Court of Appea ls decision is coupled
Mr. Williams’ inability to clarify the alternative interpretation he advanced. We find
clear and convincing evidence of the violation. See In re Aubuchon, 233 Ariz. 62,
64-65 (2013), as amended (Oct. 25, 2013) (“We have done our best to discern and
address Aubuchon's arguments, but we consider waived those arguments not
supported by adequate explanation, citations to the record, or authority.”)
Throughout the hearing, Mr. Williams emphasized that it was the position his
client wanted to advance. Mr. Williams stated, “Client was the one who wanted to .
.. make this argument on appeal.” (Hr’g Tr., beginning at 3:54:50 p.m.) The Panel
recognizes a lawyer’s responsibility to “use legal procedure for the fullest benefit of
the client's cause.” ER 3.1 cmt. 2. However, the Preface to the Rules of Profession
Conduct recognizes that “difficult ethical problems arise from the conflict between
a lawyer's responsibilities to clients [and] to the legal system.”
As ER 3.1 demonstrates, a lawyer is not permitted to advance every argument
a client may wish to make. Instead, the lawyer must independently “determine that
21

App. 32

they can make good faith and nonfrivolous arguments in support of their clients'
positions.” ER 3.1 cmt. 2. This was further demonstrated when Mr. Williams
acknowledged that “there wasn’t much there.” (Hr’g Tr., beginning at 4:03:40 p.m.).
Mr. Williams was first admitted to practice in 2003. JPS at4! 1. He described
his considerable experience representing clients in “many different courts.” (Hr’g
Tr., beginning at 2:21:40 p.m.). The Panel finds that a lawyer with such experience
“undoubtedly knew” that meritorious arguments must contain legal support beyond
hypothetical and speculation. See In re Aubuchon, 233 Ariz. at 72 (holding that a
prosecutor with five years of experience knew how to support a complaint with an
adequate probable cause statement and therefore knew the complaint was not
supported by probable cause). It will remain unknown how the Client would have
proceeded had Mr. Williams offered him competent representation. Mr. Williams
violated ER 3.1.
ER 3.4(c) (knowing rule violation). ER 3.4(c) provides that a lawyer shall
not “knowingly disobey an obligation under the rales of a tribunal except for an
open refusal based on an assertion that no valid obligation exists.”
To find a violation of ER 3.4(c) requires that Mr. Williams must have
“knowingly” violated the applicable rules. He violated the rules of the trial court and
the appellate court. We recognize that if Mr. Williams should have known about the
applicable rules but did not have actual knowledge, there is not a violation of ER
22

App. 33

3.4(c), In re Alexander, 232 Ariz, 1, 10 (Ariz. 2013). The State Bar alleges that Mr.
Williams knowingly did not comply with Rule 49 of the Rules of Family Law
Procedure (“Rule 49”) and Rule 13 of the Arizona Rules of Civil Appellate
Procedure (“ARCAP 13”). The State Bar cites language in both the trial and
appellate court decisions for support. (State Bar’s Pre-Hr’g Mem. 4-5.) Mr. Williams
is an experienced lawyer in both family court proceedings and appellate work by his
own statements.
In the Judge’s Final Orders, the court noted that Client “did not file a Financial
Affidavit or otherwise timely comply with the disclosure requirements of Rule 49,”
(Ex. 6, at 000084-85.) Mr. Williams argued that he complied with the “then existing
applicable and relevant Rules of Family Law Procedure (including but not limited
to Rule 47).” (Amended Joint Pre-FIr’g Statement 6.) Mr. Williams emphasized that
Rule 47 and Rule 49 changed over time and that Rule 47 did not say Mr. Williams
had to file an Affidavit of Financial Information. (Hfg Tr., beginning at 1:58:10
p.m.)
Rule 47 was not explicitly mentioned in the trial court’s order, and Mr.
Williams failed to direct the Panel to a specific part of the rale or explain the
relevance of Rule 47. The Panel reviewed the version of Rule 49 in effect in 2016
and found that it required an Affidavit of Financial Information to be included “[i]n

23

App. 34

a case in which child support is an issue,” Rule 49(C)(1), ARFLP (2016). Rule
76(C)(1) RFLP required it be filed.
Mr. Williams emailed his client a copy of an Affidavit of Financial
Information to complete with a copy of Rule 49; therefore, his conduct indicates he
knew of the rule. (Ex, 12, at 000130-000149.) Because Mr. Williams failed to
provide the Panel with specific citations or relevant changes, the Panel made a good
effort to find any other relevant rule changes but did not find any. See In re
Aubuchon, 233 Ariz. at 72 (explaining that the Court tried to discern arguments but
deemed arguments waived that are not “supported by adequate explanation, citations
to the record, or authority”). The Panel finds that Mr. Williams knowingly violated
the then-existing Rule 49 and 76.
When addressing Mr. Williams5 argument that the trial court abused its
discretion, the Court of Appeals decision stated that Mr. Williams “failed to include
appropriate citations to the record or relevant legal authority'” and deemed his
arguments waived or abandoned. (Ex. 8. at 000116.) Arguments in briefs filed with
the Court of Appeals must contain “citations to legal authorities and appropriate
references to the portions of the record on which appellant relies.” Rule 13(a)(7),
Ariz. R. Civ. App. P (“ARCAP”); see Rule 59(h), Ariz, R. Sup.Ct. (requiring the
content of briefs to conform to ARCAP 13).

24

App. 35

'‘Failure to comply with a court order is the very heart of the subject
misconduct.” Matter of Miranda, 176 Ariz. 202 (1993). Miranda was hired to do an
appeal. He failed to timely file it and his brief, like the brief of Williams, was
deficient. He was suspended seven months.
Although Mr. Williams’ brief refers to what the trial court “appeared to find,”
“discussed,” and “did not find,” the statements lack citations to the record. (Ex. 7, at
000107, Iff 33-35.) The argument also describes testimony of his client with no
citation to the record. (Ex. 7, at 000108, f 39.) The majority of Mr. Williams’
argument lacks any citations to legal authority. (Ex. 7, at 000107-10, ff37-46.) The
argument is supported with hypothetical without reference to cases and speculation
about legislative intent without citations to legislative histoiy. (Ex. 7, at 000107-10,
ff 41-44.) A lawyer is expected to know the rules of civil procedure.1 Mr. Williams
stated he has handled many divorce cases and “represented people in . . . many
different courts” and therefore should be familiar with the rules. (Hr’g Tr., beginning
at 2:21:42 p.m.) He told his client he was experienced in the handling of appeals.
The Panel finds that Mr. Williams knowingly violated Rule 49 and ARCAP
13 and therefore violated ER 3.4(c).

1 ER 1.1 requires a lawyer to provide competent representation to the cl ient, which includes
the legal knowledge reasonably necessary for the representation. See Toy v. Katz, 192 Ariz.
73, 85 (App. 1997). To maintain the requisite knowledge, “a lawyer should keep abreast of
changes in the law” to maintain the requisite knowledge. ER 1.1 cmt. 6. Such changes
jnclude-the-rules.ofxiviLprocedure-W'hen.engaging.inxLvinitigation.------------------------25

App. 36

ER 8.4(d) (prejudicial to administration ofjustice). ER 8.4(d) provides that
it is professional misconduct for a lawyer to “engage in conduct that is prejudicial
to the administration of justice.”
ER 8.4(d) only requires negligent conduct. In re Alexander, 232 Ariz. 1, 11
(Ariz. 2013). The State Bar alleges that Mr. Williams’ conduct was prejudicial to the
administration of justice in several regards. We agree. First, Mr. Williams failed to
comply with Rule 49 and Rule 76 FLRP. Mr. Williams did not provide the
information or clarifications that would have enabled Client to correctly complete
the disclosure requirements of Rule 49. ((Ex. 10, at 000121-122.)
Mr. Williams’ acted at least negligently when he failed to respond to Client’s
repeated requests for information and failed to affirmatively ensure compliance with
Rule 49. Disclosure violations reduce the efficiency of the judicial system and lead
to unnecessary disputes. His own client was harmed in the form of monetary
sanctions due to the disclosure violations.
Second, the State Bar alleges that Mr. Williams advanced frivolous claims in
his appeal. As discussed with ER 3.1, Mr. Williams filed inadequate briefing to
support claims he knew were unmeritorious. This resulted in wasted court time and
resources. Client had to pay his ex-wife’s attorney fees and costs resulting from the
appeal. Rather than counsel his client against the appeal or support the arguments
with relevant authority, Mr. Williams filed an appeal with little chance of success.
26

App. 37

Finally, Mr. Williams knowingly failed to inform his client about the adverse
Court of Appeals decision. Because lawyers are expected to act with diligence,
failure to inform a client of decisions is prejudicial to the administration of justice.
Failing to notify a client of a decision reduces the time Client can decide his next
steps, such as filing an appeal. The omission is likely to either reduce the client’s
confidence in the attorney, and potentially worse, may indicate a dishonest intention
to hide the result. The Panel finds that Mr. Williams’ conduct was prejudicial to the
administration of justice.
C.

Sanction Standards

The American Bar Association’s Standards far Imposing Lawyer Sanctions
(“Standards^) are a “useful tool” to determine the appropriate sanction. In re
Cardenas, 164 Ariz. 149, 152 (Ariz. 1990).
1.

A violation of ER 1.1 implicates Standard 4.5. Lack of Competence.

Standard 4.52 provides that “[suspension is generally appropriate when a
lawyer engages in an area of practice in which the lawyer knows he or she is not
competent and causes injury or potential injury to a client.” Standard 4.53 provides
that “[reprimand is generally appropriate when a lawyer: (a) demonstrates failure to
understand relevant legal doctrines or procedures and causes injury or potential
injury to the client.” Mr. Williams demonstrated a failure to either understand or
follow the Court of Appeals’ rules for filing; Mr. Williams’s deficient briefing
27

App. 38

caused the Court of Appeals to find the arguments abandoned or waived. This is
entirely the failing of Mr. Williams, not the client.
Client was injured in the form of $11,780,00 in attorney fees and costs.
Standard 4.53 is therefore relevant; however, Mr. Williams’s conduct amounted to
more than a failure to understand legal doctrines. Therefore, although Standard 4.52
is not directly on point because Mr. Williams claims to be experienced in appellate
work, suspension is the appropriate sanction. Ultimately, Mr. Williams was not
competent in representing Client on appeal, which resulted in injury to Client in the
form of trial court and appellate court sanctions.
2.

Violations of ER 1.3 and ER 1.4 implicate Standard 4.4, Lack of
Diligence.

Standard 4.42(b) provides that “[sjuspension is generally appropriate when:
(a) a lawyer knowingly fails to perform services for a client and causes injury or
potential injury to a client; or (b) a lawyer engages in a pattern of neglect and causes
injury or potential injury to the client.” Mr. Williams repeatedly failed to
communicate with Client. This prevented Client from meeting the trial court’s
disclosure requirements and resulted in Client being sanctioned. Mr. Williams also
failed to communicate his belief that a successful appeal was unlikely, which would
have prevented unnecessary costs. Mr. Williams’s Opening Brief with the Court of

28

App. 39

Appeals did not contain appropriate legal support, as required by the court rules.
This resulted in waiver of the arguments and attorney fees and costs.
3-

Violations of ER3.1 and 3.4(c) implicate Standard 6.2. Abuse of the
Legal Process. A violation of 8.4(d) implicates Standard 6,0
Violations of Duties Owed to Legal System,

Both Standard 6.0 and 6.2 implicate Standard 6.22, which provides that
“[suspension is appropriate when a lawyer knows that he is violating a court order
or rule, and there is injury or potential injury to a client or a party, or interference or
potential interference with a legal proceeding.” Mr. Williams knew that his
arguments to the Court of Appeals lacked any legal support. Mr. Williams is
expected to know the Arizona Rules of Civil Appellate Procedure. See supra text
accompanying note 1. Therefore, his failure to include citations constitutes
knowingly violating a court rule. The lack of citations (which further highlighted the
unmeritorious arguments) resulted in waiver of the arguments and ultimately caused
injury to Client in the form of $11,780.00 in attorney fees and costs.
D.

Aggravation, Mitigation, and Sanctions

Standard 3.0 directs the court to consider “the existence of aggravating or mitigating
factors” when imposing a sanction for lawyer misconduct. The following
aggravating and mitigating factors are implicated in this case:
1.

Standard 9.22(a) Prior Disciplinary Offenses
29
App. 40

Mr. Williams had a previous disciplinary offense in 2013 for violating Ethical
Rules 1.1, 1.3, 1.5, 1.15(d), 1.16(d), and 8.4(d). (Ex. 11, 000124.) Despite this, Mr.
Williams contends that Standard 9.32(a) (mitigation for an absence of prior
disciplinary record) should apply because the prior offense involved a criminal case
from 2008 or 2009 that included different allegations and issues. (Hr’g Tr.,
beginning at 4:08:35 p.m.)
In evaluating whether Mr. Williams has prior disciplinary offenses, the court
does not require that the offenses result from the same circumstances or even the
same misconduct. (These nuances are analyzed under Standard 9.22(c).) Instead, the
court simply looks at whether there has been a prior disciplinary offense. See Matter
ofAugenstein, 178 Ariz. 133,136-37 (Ariz. 1994) (finding aprior disciplinary record
based on “2 additional instances of misconduct” without analyzing the
circumstances or specific type of misconduct). Aggravating factor 9.22(a) therefore
applies to any ethical violations.
2,

Standard 9.22(b) Dishonest or Selfish Motive

Mr. Williams contends that Standard 9.32(b) (absence of dishonest or selfish
motive) should apply because he was not paid for his services on appeal and is still
owed money for his representation in the trial court: however, lack of payment is not
a defense to failing to notify a client of an adverse ruling. Mr. Williams was paid

30

App.41

$5,500 in a divorce case in which he failed to file- critical, required documents. His
request for findings of fact were deficient because it was untimely.
Mr. Williams had a dishonest or selfish motive to conceal the Court of
Appeals opinion because the adverse decision heavily criticized Mr. Williams’ brief.
See In re Arrick, 180 Ariz. 136, 143 (Ariz. 1994) (finding dishonest or selfish
motives when attorney made misrepresentations to a client that were “designed to
cover his negligence”). Aggravating factor 9.22(b) applies.
3.

Standard 9.22(c) Pattern of Misconduct

Mr. Williams’ misconduct in the present case was not the result of a single
lapse in judgement, but rather a consistent lack of communication with and
competent representation of his client. Mr. Williams has a previous disciplinary
offense. In both the previous and present cases, Mr. Williams violated Ethical Rules
1.1, 1.3, and 8.4(d). This demonstrates a larger pattern of misconduct See In re
Lincoln, 165 Ariz. 233, 236 (Ariz. 1990) (“[RJespondent’s history of disciplinary
offenses shows a pattern of similar misconduct.”) Aggravating factor 9.22(c)
applies.
4.

Standard 9.22(d) Multiple Offenses

Mr. Williams violated multiple Ethical Rules in the present case. He violated
ethical rules in his trial court representation. He also violated ethical rules in his

31

App. 42

appellate court representation. Aggravating factor 9.22(d) applies but is given no
weight.?
5.

Standard 9.22(g) Refusal to Acknowledge Wrongful Nature of
Conduct

Although Mr. Williams describes himself as “imperfect,” Mr. Williams does
not acknowledge that any of his conduct was wrongful. Instead, Mr. Williams blame
shifts to his Client, claiming he is looking for someone to blame because he did not
get a successful result in his case, (Hr’g Tr., beginning at 3:55:09 p.m.) We find the
opposite is true. Even when discussing these issues, he fails to see his shortfalls and
breaches and instead swore that he will no longer accepts his clients’ word and will
keep better documentation. (Hr’g Tr., beginning at 3:46:30 p.m.) Neither of these
changes if implemented would likely have prevented the misconduct at issue in this
case. Both proposed changes blame-shift to the client. Blaming another is
inconsistent with acknowledging one’s own misconduct. Aggravating factor 9.22(g)
applies.
6.

Standard 9.22(h) Vulnerability of Victim

Client is an immigrant whose first language is not English. (Hr’g Tr.
1/15/2020, beginning at 9:34:00 a.m. and 3:44:26 p.m.) This made Client especially
dependent on Mr. Williams’ communications and explanations of an oftencomplicated legal process. See In re Shannon, 179 Ariz. 52,69 (Ariz. 1994) (finding
32

App. 43

that a victim’s vulnerability turns on the situation rather than predetermined factors
such as education or work experience). Aggravating factor 9.22(h) applies.
7.

Standard 9.22(i) Substantial Experience in the Practice of Law

Mr. Williams has been licensed to practice law since 2003. Mr. Williams
stated that he has “represented hundreds of clients.” (Resp’t Pre-Hr’g Mem. 15.)
Aggravating factor 9.22(i) applies.
8.

Standard 9.32(d) Timely good faith effort to make restitution or to
rectify consequences of misconduct

Mr. Williams argued that moving to reconsider with the trial court and
receiving an extension of time to file a Petition for Review with the Arizona Supreme
Court constitute “timely efforts to protect” Client. (Resp’t Pre-Hr’g Mem. 15.)
Neither rectified the harm done to Client as a result of the misconduct. We find
Mitigating factor 9.32(d) does not apply.
9.

Standard 9.32(e) Full and free disclosure to disciplinary board or
cooperative attitude toward proceedings

The Panel finds that Mr. Williams has timely and cooperatively participated
in the proceedings. Mitigating factor 9.32(e) applies.
10.

Standard 9.32(g) Character or reputation

Mr, Williams contends that he “enjoys a good reputation in the community.”
(Resp’t Pre-Hr’g Mem. 16.) However, Mr. Williams offered only his self-serving
33

App. 44

opinion of himself. There were no witnesses offered who could attest to the good
character or reputation in the community that he claimed for himself. See Matter of
Murray, 159 Ariz. 280, 283 (Ariz. 1988) (finding mitigation for Mr. Murray when
“current and former employers have testified in support of his good character,
reputation and professional competence”). Mitigating factor 9.32(g) does not apply.
11.

Standard 9.32(j) Delay in disciplinary proceedings

Mr. Williams contends that because the State Bar filed no complaint until
almost a year after receiving Client’s complaint, Standard 9.32(j) should apply
(Resp’t Pre-Hr’g Mem. 16.); however, this is not an unreasonable delay that would
have prejudiced Mr. Williams. The State Bar filed a complaint less than two months
after the Probable Cause Order was issued. Mitigating factor 9.32(i) does not apply.
12.

Standard 9.32(k) Imposition of other penalties or sanctions

Mr. Williams contends that Standard 9.32(k) should apply because he has
spent time and money to “defendf] himself in these proceedings.” (Resp’t Pre-Hr’g
Mem. 16.) Costs associated with defending disciplinary proceedings do not qualify
as penalties or sanctions. See In re Levine, 174 Ariz. 146,173 (Ariz, 1993) (finding
mitigation when a court imposes sanctions and fees) (emphasis added). If defending
disciplinary proceedings qualified as a sanction, mitigating factor 9.32(k) would
always be applicable. Therefore, mitigating factor 9.32(k) does not apply.
13,

Standard 9.32(1) Remorse
34

App. 45

Mr. Williams maintains that he is remorseful. We find no objective evidence
for this claim. Mr. Williams has never accepted responsibility for his actions or tried
to remedy the harm done to Client. See In re Augenstein, 178 Ariz. 133, 137 (Ariz.
1994) (“[RJemorse must present a showing of more than having said they are
sorry..,. [T]he best evidence of genuine remorse is affirmative and, if necessary,
creative efforts to make the injured client whole.”) As discussed under Standard
9.22(g), Mr. Williams continues to shift the blame to his client. Blaming others is
inconsistent with remorse. Mitigating factor 9.32(1) does not apply,
14.

Standard 9.32(m) Remoteness of prior offenses

In 2013, Mr. Williams was admonished and placed on probation for a previous
disciplinary offense. Mitigating factor 9.32(m) does not apply.
IV.

CONCLUSION

“The purpose of professional discipline is to protect the public rather than to
punish the attorney.” In re Schwartz, 141 Ariz. 266, 277 (Ariz. 1984). Another goal
of professional discipline is to “instill public confidence in the bar’s integrity.” In re
Horwitz, 180 Ariz. 20,29 (Ariz. 1994). Both goals were considered in this case.
Some of the same concerns that prompted this case also became apparent
throughout the hearing and Mr. Williams’ representation of himself. A disciplinary
hearing is likely to be a stressful experience with significant professional
ramifications; however, the Panel was troubled by Mr. Williams ’ lack of
35

App. 46

preparedness. Mr. Williams repeatedly referenced documents not in evidence. The
Panel frequently reminded Mr. Williams that he was repeating arguments. Mr.
Williams also did not seem to understand the Court of Appeals ruling and continued
to defend the decision to appeal. The Panel is troubled by these competence issues
and the implications for the public. As his client testified to, Mr. Williams5 conduct
reduced his client’s confidence not only in Mr. Williams but in all Arizona attorneys.
The hearing panel’s concerns are multiple and none of them were adequately
met by the arguments of Mr. Williams. We find these issues go far beyond
competence issues. The hearing panel finds his conduct was such that Mr. Williams
should be required to identify the weakness that caused these multiple failings and
for the protection of the public clearly and convincingly demonstrate they have been
overcome with sufficient safeguards to protect the public.
The Panel orders:
1.

Mark Williams, Bar No. 022096, is suspended from the practice of

law for six (6) months and one (1) day effective thirty (30) days from this
order. As a condition of reinstatement, he must undergo a Member
Assistance Program evaluation by Dr. Lett to aid in his identification of
terms of probation sufficient to assure the protection of the public.

36

App. 47

2.

Mr. Williams shall comply with the requirements of Rule 72, Ariz. R.

Sup. Ct. which include, but are not limited to, notification of clients and
others filing all notices and affidavits required.
3.

Mr. Williams shall pay all costs and expenses incurred by the State

Bar of Arizona in this proceeding. There are no costs or expenses
incurred by the Office of the Presiding Disciplinary Judge.
A final judgement and order shall follow.
DATED this 27th day of February 2020.
7Viffiam l O lTVeif
William J. O’Neil, Presiding Disciplinary Judge
Jlaib/i Wexfer
Ralph Wexler, Attorney Member
IV. JCeitfi, Turner
W. Keith Turner, Public Member
Copy of the foregoing emailed
this 27th day of February, 2020. to:
Mark Lee Williams
Law Office of Mark L. Williams
969 N. Ave., Suite 1
Nogales, AZ 85621-2244
Email: markwi.lliamsesq@vahoo.com
Respondent

37

App. 48

Hunter F. Perimeter
Senior Bar Counsel
State Bar of Arizona
4201 N. 24th Street, Suite 100
Phoenix, Arizona 85016-6266
by; BEnsign

38

App. 49

SUPREME COURT OF ARIZONA
In the Matter of a Member of the
State Bar of Arizona
MARK LEE WILLIAMS,
Attorney No. 22096

Arizona Supreme Court
No. SB-20-0017-AP
Office of the Presiding
Disciplinary Judge
No. PDJ20199058

)

Respondent. )
)

ORDER
Upon
Expenses,"

consideration
Respondent

of

the

"State

Williams'

Bar ■ Statement

objections,

and

the

of

Costs

State

and

Bar's

response,
IT IS ORDERED denying Respondent's objections.
IT IS FURTHER ORDERED,
Rule

60(d)(2)(B),

the

ADJUDGED AND DECREED that pursuant

State

against Respondent Mark L.

Bar

of

Williams

Arizona
for costs

is

granted

and expenses

disciplinary proceedings in the amount of $4,704.63,
interest at the legal rate from the date of this order.
DATED this 30th day of March, 2021.

/s/
ANN SCOTT TIMMER
Duty Justice

App.212

to

judgment
of the

together with

TO:
Mark Lee Williams
Hunter F Perimeter
Susan Hunt
Sandra Montoya
Maret Vessella

App. 213

SUPREME COURT OF ARIZONA
In the Matter of a Member of the
State Bar of Arizona
MARK LEE WILLIAMS,
Attorney No. 22096

Arizona Supreme Court
No. SB-20-0017-AP

)
)
)

)
)
)
Respondent. )

Office of the Presiding
Disciplinary Judge
No. PDJ20199058

)
)

FILED 04/14/2021

ORDER
Upon consideration of Respondent's "Motion for Reconsideration
of March 5, 2021 Amended Decision Order,"
IT IS ORDERED denying the motion.
IT

IS

FURTHER

ORDERED

no

further

motions

reconsideration of the Court's decision will be considered.
DATED this 14th day of April, 2021.

/s/
CLINT BOLICK
Duty Justice

App.255

requesting

TO:
Mark Lee Williams
Hunter F Perimeter
Susan Hunt
Sandra Montoya
Maret Vessella
Don Lewis
Beth Stephenson
Mary Pieper
Raziel Atienza
Lexis Nexis

\

App. 256

Additional material
from this filing is
available in the
Clerk's Office.

